No. 19-368 & 19-369

IN THE
Supreme Court of the Anited States
ForD MOTOR COMPANY,
Petitioner,
Vv.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, ETAL.,
Respondents.
FoRD MOTOR CoMPANY,
Petitioner,
Vv.
ADAM BANDEMER,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that the Brief of
Washington Legal Foundation as Amicus Curiae in Support of Petitioner in Ford
Motor Company v. Montana Eighth Judicial District Court, No. 19-368, and Ford
Motor Company v. Bandemer, No. 19-369, complies with the word limitations, as it

contains 4,841 words.

I declare under penalty of perjury that the foregoing is true and correct.

Date: March 6, 2020

 
